1
NO.
IN

THE

SUPREME COURT OF THE UNITED STATES :
JULIO TORRES PALOMO -PETITIONER
V.
LORIE DAVIS- RESPONDENT
PROOF OF SEVRICE;
I,JULIO TORRES PALOMO,T.D.C.J.No. 1923341,pro-se,do swear that on
this day November Uz.) ,2020, as required by the Supreme court Rule
29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PRUPERIS ANS PETITION FOR A WRIT OF CERTIORARI on each party/
to the above proceeding or that party of counsel,and on every c
person required to be served,by depositing an envelope containing
the above documents in the United States mail properly addressed
to each of them and with first-class postage pre-paid,or by
delivery to. a third party commercial carrier within 3 calender days.
The names and addresses of those served are as follows:
State Attorney General's Office P.O.Box 12367 Austin,Texas 78711
I declare under the penalty of perjury that the following is true
and correst.
Executed on this

f£ ^ day of November

2020.

JULIO T. PALOMO
# 1923341
Me Connell Unit
3001 S.Emily drive
Beeville,Texas 78102

•J

A

A

4

L

Additional material
from this filing is
available in the
Clerk's Office.

